0

L

'

■

84
IN THE SUPREME COURT OF
THE UNITED STATES OF AMERICA
HAIDER SALAH ABDULRAZZAK,
Plaintiffand Petitioner,
Co

vs.

(I) DENNIS KAEMINGK; (2) AARON MILLER; (3) SD. BD. OF PARDONS
*9 %
PAROLES; (4) DOUG CLARK; (5) GREG ERLANDSON; (6) MARON RAU39?<*
ROBERT DOOLEY; (8) SUSAN JACOBS; (9) KIM LIPINCOTT; (10) J.C. SMITHf
(II) DUSTI WERNER; (12) DAKOTA PSYCHOLOGICAL SERVICES LLC; (13)
JUSHUA KAUFMAN; (14) JOSEPH SIEMONSMA; (15) ROBERT BERTHELSON;
(16) JEANNIE BERTSCH (F/N/U BERTSCH).
In their official and individual capacities,
Defendants & Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE
EIGHTH CIRCUIT COURT OF APPEALS
Agency Case# 18-1213;# 19-2170
PETITION FOR WRIT OF CERTIORARI
HAIDER SALAH ABDULRAZZAK
Mike Durfee State Prison
1412 Wood Street,
Springfield, South Dakota 57062-2238
Plaintiff & Petitioner/ Pro Se
FRANK E. GEMIAN Esq.
South Dakota Assistant State Attorney General
1302 East Highway 14, Suite 1
Pierre, South Dakota 57501-3215
Tel. (605) 773-3215
Email: frank.geaghan@state.sd.us
Attorney of records for Defendants & Respondents

RECEIVED
AUG 1 9 2020

Received
AW -5 2020

No.

IN THE
SUPREME COURT OF THE UNITED STATES

SMM\

— PETITIONER
(Your Name)
vs.

D£MNirs

cLJ,

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

£ /gvty, Gtqa't

g>qvL.

k?^As

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

*Sc<Uh ^W^Wzlz-qIt
(Your Name)

Mte?, i H ia

swt

(Address)

S^'^^cL s^s7o^g-^2 3g
(City, State, Zip Code)

(Phone Number)

QUESTIONS PRESENTED
COUNT I:
1. Whether Petitioner’s claims that his parole was revoked due to invoking his Fifth
Amendment Right to refuse to incriminate himself could establish Supervisory liability when
they agreed to pursuant to Neitzke v. Williams, 490 U.S. 319, 109 S. Ct. 1827, 104 L. Ed. 2d
338 (1983) and/or other cited controlling authorities.
2. Where State parolee who his parole was revoked, in part, due to refusing to
incriminate himself in violation to Minnesota v. Murphy, 529 U.S. 420, 104 S. Ct. 1136, 79
L. Ed. 2d 404 (1984), Petitioner is entitled to new parole revocation hearing.
3. In a retaliation claim, whether petitioner is required to prove the intent to
discriminate at the initial pleading and prior to service upon defendants.
4. Whether Respondents acting as supervisors who undertook unconstitutional actions
by their employees should be liable for damages in their individual capacities.
5. Where Petitioner, legal immigrant, and incarcerated in State Prison, was entitled to
due process to be informed about his treatment similar to other U.S. inmates incarcerated in
state prisons prior to his initial parole release or other wise upon any settlement with
immigration authorities could establish a class-of-one claim under village ofWillowbrook v.
Olech, 528 U.S. 562,120 S. Ct. 1073,145 L. Ed. 2d 1060 (2000).
6. Where a state accept federal funding for its prisoner’s programming, the state
Dep’t. of Carr’s, officials (or the state agency which accept the funding) sued in their official
capacities are to be considered waived their Eleventh Amendment Absolute Immunity for
monetary damages in a discrimination claim against its legal immigrant under Hosp v.

l

Scanlon, 473 U.S. 234, 105 S. Ct. 3142, 87 L. Ed. 2d 171 (1985) and therefore liable for
monetary damages.
7. Whether State parole officials entitled to absolute immunity for violation of inmates
constitutional rights are entitled to absolute immunity as a matter of federal law.
- COUNT II:
8. Where the allegations established that Respondents prison staff who aware of
treatment programming for parolees and intentionally failure to disclose the requirement to a
legal immigrant parolee that result in revoking his parole sustained a claim of constitutional
violation that required service upon them.
9. Where Petitioner named a defendant for claim of constitutional violation (Parole Board
Director) and other named defendants admitted to his responsibility, the lower court abused its
discretion for dismissing that defendant pre-serving pursuant to U.S.C.S. §§ 1915(e)(2)(B)(ii)
and 1915A(b)(l).
10. Where Petitioner's allegations established that defendants failure to timely disclose
the treatment requirement that later resulted in revoking his parole (in part) due to his non-U.S.
Citizenship established a claim of discrimination pursuant to village ofWillowbrook.
11. Where Petitioner was only challenging the time for imposing a parole condition as
imposed in a discrimination manner rather than the parole conditions themselves, Respondents
should be entitled to absolute qusi-judicial immunity.
12. Where facts supported by official policy established a Respondent liability for
unconstitutional actions, Respondent was entitled to summary judgment for the denial of such
responsibility.

u

13. Where a State employee (parole officer) failed to get approval from supervisors as
required by the law to modify individual's parole conditions is entitled to the absolute qusijudicial immunity.
- COUNT III:
14. Where defendants did not disputed that Petitioner's parole -in part- was revoked due
to his refusal to incriminate himself while on parole in violation to Minnesota v. Murphy, 529
U.S. 420, 438, 104 S. Ct. 1136, 79 L. Ed. 2d 409 (1984), the claim should be still bared pursuant
to Heck v. Humphrey, 512 U.S. 477,114 S. Ct. 2364,129, L. Ed. 2d 383 (1994).
15. Whether Petitioner allegations against his parole officer, parole officer supervisor and
treatment provider for actions taken in the course of their supervision to Petitioner parolee, is
subject to dismissal Heck v. Humphrey, 512 U.S. 477,114 S. Ct. 2364, 129, L. Ed. 2d 383
(1994).
- COUNT IV:
16. Where a named defendant refused to disclose his whereabouts after becoming aware
of court direction to discover his address, a default judgment should be entered against him as
sanctions for failure to cooperate pursuant to Int’l. Union v. Bagwell, 512 U.S. 821, 114 S. Ct.
2552,129 L. Ed. 2d 642 (1994) and/or other controlling authorities.
17. Whether allegations of conspiracy between a state actor and private actor to violate
individual constitutional rights while under both supervision from inside state government
building, the private actor is entitled to defense of non-state actor never pled by him from the
face of the claim pursuant to

m

18. Where Petitioner alleged different allegations of violation of his constitutional right
by a defendant which were not denied by defendant, the court abused its discretion by dismissing
these claims prior to service upon defendant.
18. Where defendant treatment provider to state inmates on parole and practiced his
duties from inside a state government building in supervising Petitioner together with a parole
agent was a state actor under Acad v. Tenn. Secondary Sch. Ath. Ass'n, 531 U.S. 288, 121 S. Ct.
924, 148 L. Ed 2d 807 (2000) and/or other controlling legal authorities.
- COUNT V:
19. Where a documents presented provided defendant asked a third party to look at
inmate's legal document while working on them in violating to inmates right to privacy in their
legal communication as determined by See Wolffv. McDonnell, 418 U.S. 539, 577, 94 S. Ct.
2936, 41 L. Ed. 2d 935 (1974) and/or other legal authorities, the defendant was entitled to
summary judgment.
20. Where the records established that a state actor conditioned an inmate's access to his
legal document by possess these document without the presentation of inmate in violating to
Wolff the state agent was entitled to summary judgment.
21. In an access to courts claim, where Petitioner had a liberty interest granted to him by!
/

state courts proceeding and laws pursuant to Sandin v. Conner, 515 U.S. 472, 483-84, 115 S.
2293, 132 L. Ed. 2d 418 (1995) to prepare a pro se brief in addition to his appointed attorney/
i

brief, the state actor was entitled to summary judgment when she denied Petitioner access t
i

!

legal resources to prepare his pro se brief.

)

22. Where the records contain parole officer admission of denying Petitioner an?
(!

of access to courts to challenge the modifications to his parole conditions in violation?
f

IV

/
/
/
/
f

/

Petitioner First and Fourteenth Amendments, the parole agent was entitled to summary
judgment.
- COUNT VI:
22. Where Petitioner submitted allegations of retaliation by his parole officer, the lower
court abused its discretion by dismissing the claims prior to service as "not coercive enough"
pursuant to McKune v. Lile, 536 U.S. 24, 122 S. Ct. 2017, 153 L. Ed. 2d 47 (2002).
- COUNT VI:
23. Where Petitioner properly named defendants in a claim of retaliation and denial of
access to court and the lower court based on Petitioner's allegations sustained claim of
constitutional violations and direct service upon defendants, the lower court abused its discretion
by dismissing those defendants prior to their filing of motion for summary judgment.
24. Where Petitioner alleged that Respondent participated and/or conspired with other
defendants to retaliate/ deny Petitioner access to courts, on or about September 28, 2017,
Respondent was entitled for summary judgment because the defendant was not employed on
October 27, 2016, in light of of most favorable to Petitioner under to Tolan v. Cotton, 572 U.S.
650, 656-57,134 S. Ct. 1861, 188 L. Ed. Ed 895 (2014) and /or other controlling authorities.
- NEW FILING FEES:
25. Where a district court order that Petitioner to pay filing fees of $505.00 (upon
installment) and the Circuit Court of Appeals dismissed an appeal as premature for lack of
jurisdiction (motion to reconsider filed in the district court), Petitioner should be required to pay
new filing fees to file an appeal after conclusion of all the proceeding pursuant to also Slack v.
McDaniel, 529, U.S. 473, 485-86,120 S. Ct. 1595,146 L. Ed. 2d 542 (2000) and/or other legal
authorities.

v

LIST OF PARTIES
[ ] All parties appeal in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is
as follows:
(I) DENNIS KAEMINGK; (2) AARON MILLER; (3) SD. BD. OF PARDONS &
PAROLES; (4) DOUG CLARK; (5) GREG ERLANDSON; (6) MARON RAU; (7)
ROBERT DOOLEY; (8) SUSAN JACOBS; (9) KIM LIPINCOTT; (10) J.C. SMITH;
(II) DUSTI WERNER; (12) DAKOTA PSYCHOLOGICAL SERVICES LLC; (13)
JUSHUA KAUFMAN; (14) JOSEPH SIEMONSMA; (15) ROBERT BERTHELSON;
(16) JEANNIE BERTSCH (F/N/U BERTSCH).
All in their official and individual capacities; Respondents.

Related cases
- Abdulrazzakv. Kaemingk, 2017 U.S. Dist. LEXIS 226035, 2017 WL 11477708
(D.S.D., Apr. 25,2017)
- Abdulrazzakv. Kaemingk, 2017 U.S. Dist. LEXIS 109287 (D.S.D. Jul. 14, 2017)
- Abdulrazzakv. Smith, 2017 U.S. Dist. LEXIS 203817, 2017 WL 6375631 (D.S.D.,
Dec. 12, 2017)
- Abdulrazzakv. Smith, 2017 U.S. Dist. LEXIS 206315 (D.S.D. Dec. 15, 2017)
- Abdulrazzakv. smith, 2018 U.S. Dist. LEXIS 13033, 2018 WL 10154277 (D.S.D., Jan.
26, 2018)
-Abdulrazzakv. smith, 2018 U.S. App. LEXIS 21727 (8th Cir. S.D., Feb. 6, 2018)
- Abdulrazzakv. smith, 2018 U.S. App. LEXIS 6754 (8th Cir. S.D., Mar. 16, 2018)
-Abdulrazzakv. smith, 2018 U.S. Dist. LEXIS 164944, 2018 WL 4625409 (D.S.D. Sept.
25, 2018)
- Abdulrazzak v. Werner, 2019 U.S. Dist. LEXIS 221107, 2019 WL 6916464 (D.S.D.
Jun. 5, 2019)

vi

Related cases
- Abdulrazzakv. Smith, 798 Fed. Appx. 48, 2020 U.S. App. LEXIS 8651 (8th Cir. S.D.,
Mar. 19, 2020)
- Abdulrazzakv. Smith, 2020 U.S. App. LEXIS 13781 (8th Cir. S.D., Apr. 29, 2020)

vii

TABLE OF CONTENTS
- OPINIONS BELOW

1

- JURISDICTION

2

- CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

- STATEMENT OF THE CASE

4

- REASONS FOR GRANTING THE WRIT

10

1. COUNT I

10

2. COUNT II

17

3. COUNT III

20

4. COUNT IV

24

5. COUNT V

28

6. COUNT VI

32

7. COUNT VII

34

CONCLUSION

39
INDEX TO APPENDICES

(A) APPENDIX A: THE DISTRICT COURT OPINION GRANTING PETITIONER'S
MOTION TO PROCEED IN FORMA PAUPERIS
* Abdulrazzak v. Kaemingk, 2017 U.S. Dist. LEXIS 226035, 2017 WL 11477708
(D.S.D., Apr. 25,2017).

(B) APPENDIX B: THE DISTRICT COURT SCREENING PETITIONER’S FIRST
AMENDED COMPLAINT.
* Abdulrazzak v. Kaemingk, 2017 U.S. Dist. LEXIS 109287 (D.S.D. Jul. 14, 2017)

viii

(C) APPENDIX C: THE DISTRICT COURT SCREENING PETITIONER’S SECOND
AMENDED COMPLAINT.
* Abdulrazzak v. Smith, 2017 U.S. Dist. LEXIS 203817, 2017 WL 6375631 (D.S.D., Dec.
12, 2017)
(D) APPENDIX D: THE DISTRICT COURT GRANTING LEAVE TO PROCEED IN
FORMA PAUPERIS ON APPEAL TO THE 8th CIRCUIT COURT (# 18-1213)
* Abdulrazzak v. smith, 2018 U.S. Dist. LEXIS 13033, 2018 WL 10154277 (D.S.D, Jan.
26, 2018)
(E) APPENDIX E: THE EIGHTH CIRCUIT COURT OF APPEALS DISMISSING
PETITIONER’S APPEAL (#13-1213) AS PREMATURE.
* Abdulrazzak v. smith, 2018 U.S. App. LEXIS 21727 (8th Cir. S.D., Feb. 6, 2018)
(F) APPENDIX F: THE CLERK OF SOUTH DAKOTA DISTRICT COURT DENYING
PETITIONER’S NOTION TO ENTER DEFAULT ON JUSHUA KAUFMAN
(UNPUPLISHED)
(G): APPENDIX G: THE EIGHTH CIRCUIT COURT OF APPEALS DENING
PETITIONER’S PETITION FOR REHEARING (# 18-1213)
* Abdulrazzak v. smith, 2018 U.S. App. LEXIS 6754 (8th Cir. S.D., Mar. 16, 2018)
(H) APPENDIX H: THE DISTRICT COURT OPINION DENYING PETITIONER’S
MOTION FOR RECONSIDERATION AND GRANTING DEFENDANT’S
MOTION FOR SUMMARY JUDGMENT.
* Abdulrazzakv. smith, 2018 U.S. Dist. LEXIS 164944, 2018 WL 4625409 (D.S.D. Sept.
25,2018)
(D APPENDIX I: THE DISTRICT COURT DENYING PETITIONER’S MOTION TO
RECONSIDER FINAL JUDGMENT.
* Abdulrazzakv. Werner, 2019 U.S. Dist. LEXIS 221107, 2019 WL 6916464 (D.S.D.
Jun. 5, 2019)
(J) APPENDIX J: THE EIGHTH CIRCUIT COURT OF APPEALS DENYING
PETITIONER’S MOTION TO REINSTATE APPEAL (#18-1213) (ENTERED JUNE
17, 2019)
* (NO CITATION AVAILABLE)
(K) APPENDIX K: THE DISTRICT COURT DENYING PETITIONER’S MOTION
FOR RECONSIDERATIONS PAYING SECOND FILILING FEES FOR APPEAL
TO THE EIGHTH CIRCUIT COURT (ENTERED JUNE 25, 2019)
* (NO CITATION AVAILABLE)

ix

(L) APPENDIX L: THE EIGHTH CIRCUIT COURT OF APPEALS SUMMARLY
DENYING PETITIONER’S APPEAL (# 19-2170).
* Abdulrazzakv. Smith, 798 Fed. Appx. 48, 2020 U.S. App. LEXIS 8651 (8th Cir. S.D.,
Mar. 19, 2020)
(M) APPENDIX M: THE EIGHTH CIRCUIT COURT OF APPEALS DENYING
PETITIONER’S PETITION FOR REHEARING (# 19-2170)
* Abdulrazzakv. Smith, 2020 U.S. App. LEXIS 13781 (8th Cir. S.D., Apr. 29, 2020)
(N) APPENDIX N: EXACT COPY OF PETITIONER’S SECOND AMENDED
COMPLAINT SUBMITTED TO SOUTH DAKOTA DISTRICT COURT (MAILED
ON SEPTEMBER 5, 2017)
(O) APPENDIX O: EXACT COPY OF PETITIONER’S (MOTION TO APPEAL)
MAILED TO SOUTH DAKOTA DISTRICT COURT ON (DECEMBER 21, 2017) ASSOCIAT WITH PETITIONER’S APPEAL (# 18-1213).

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Abdulrazzak v. Kaemingk, 2017 U.S. Dist. LEXIS 109287
(D.S.D.M. 14,2017)
Abdulrazzak v. Smith, 2017 U.S. Dist. LEXIS 203817,
2017 WL 6375631 (D.S.D., Dec. 12, 2017)

7, 11,24, 34

7, 11, 17, 20, 24,37

Abdulrazzak v. Smith, 2018 U.S. App. LEXIS 6754
(8th Cir. S.D., 2018)

8, 36

Abdulrazzak v. Smith, 2018 U.S. Dist. LEXIS 13033,
2018 WL 10154277 (D.S.D., Jan. 26, 2018)

8,37

Abdulrazzak v. Smith, 2018 U.S. Dist. LEXIS 164944,
2018 WL 4625409 (D.S.D. Sept. 25,2018)

9,12,14, 16,18, 24, 26,
28, 29, 30,31, 35

Abdulrazzak v. Smith, 2018, U.S. App. LEXIS 21727
(8th Cir. S.D., Feb. 6,2018)

8, 37, 38

Abdulrazzak v. Smith, 2020 U.S. App. LEXIS 13781
(8th Cir. S.D., Apr. 29,2020)

10

Abdulrazzak v. Smith, 798 Fed. Appx. 48, 2020 U.S. App. LEXIS 8651
(8th Cir. S.D., Mar. 19, 2020)

10

Abdulrazzak v. Werner, 2019 U.S. Dist. LEXIS 221107,
WL 6916464 (D.S.D., Jun. 5, 2019)

10, 15

Acad v. Tern. Secondary Sch. Ath. Ass'n., 531 U.S. 288, 121 S. Ct. 924,
148 L. Ed. 2d. 807 (2001)

26

Adams v. Agneil, 40 F.3d 643 (8th Cir. 2005)

21

Albright v. Oliver, 510 U.S. 266,114 S. Ct. 807,
127 L. Ed. 2d 114(1994)

10

Anders v. State of California, 386 U.S. 738 S. Ct. 1396,
18 L. Ed. 2d 493 (1967)

29

Anderson v. Liberty Lobby, Inc, All U.S. 242,106 S. Ct. 2505,
91 L. Ed. 2d 202 (1986)

28, 37

xii

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Beard v. Banks, 548 U.S. 521, 126 S. Ct. 2572, 165 L. Ed. 2d 697 (2006)

23

Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 127 S. Ct. 1995,
167 L. Ed. 2d 929 (2007)

16, 28

Blaise v. Fenn, 48 F.3d 337, 340 (8th Cir. 1995)

32

Board ofPardons v. Allen, 482 U.S. 369, 107 S. Ct. 2415,
96 L. Ed. 2d 575 (1987)

13

Bordenkircher v. Hayes, 434 U.S. 357, 98 S. Ct. 663,
54 L. Ed. 2d 604(1978)

14

Butler v. Merchants Bank & Trust Co. (In re Butler Inc.),
2 F.3d 154 (5th Cir. 1993)

38

City of Canton v. Harris, 489 U.S. 378, 109 S. Ct. 1197,
103 L. Ed. 2d 412 (1989)

14

Cleavinger v. Saxner, 474 U.S. 193, 106 S. Ct. 496,
88 L. Ed. 2d 507 (1985)

13

Close v. Weber, 238 F.3d 1018 (8th Cir. 2001)

31

Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 110 S. Ct. 2447,
110 L. Ed. 2d 359 (1990)

39

Dennis v. Sparks, 449 U.S. 24,101 S. Ct. 183, 66 L. Ed. 2d 85 (1980)

27

Doe v. City of Albuquerque, 2010 U.S. Dist. LEXIS 158477
(D.N.M. Mar. 31,2010)

32

Edwards v. Balisok, 520 U.S. 641,117 S. Ct. 1584,
137 L. Ed. 2d 906(1997)

21

Engguistv. Dep't. OfAgric., 553 U.S. 591, 128 S. Ct. 2146,

170 L. Ed. 2d 975 (2008)

15

Estelle v. Gamble, 429 U.S. 97, 97 S. Ct. 185, 50 L. Ed. 2d 251 (1976)

23

Farrell v. Burke, 449 F.3d 470 (2nd Cir. 2006)

18

xm

TABLE OF AUTHORITIES CITED
CASES

PAGENUMBER

FMCv. S.C. State Ports Auth., 535 U.S. 743,122 S. Ct. 1864,
152 L. Ed. 2d 962 (2002)

25

Forrester v, White, 484 U.S. 219, 108 S. Ct. 538,
98 L. Ed. 2d 555 (1988)

13

Foulkv. Charrier, 262 F.3d 687 (8th Cir. 2001)

26

Graham v. Richardson, 403 U.S. 365, 91 S. Ct. 1848,
29 L. Ed. 2d 534(1971)

11,15

Griffin v. County School Bd. of Prince Edward County,
377 U.S. 218, 84 S. Ct. 1226,12 L. Ed. 2d 256 (1964)

35

Gross v. Samudio, 630 F. Appx. 772, 778-79 (10th Cir. 2015)

25

Haines v. Kerner, 404 U.S. 519, 92 S. Ct. 594, 30 L. Ed. 2d 652 (1972)

10

Heck v. Humphrey, 512 U.S. 477,114 S. Ct. 2364, 129 L. Ed. 2d 383 (1994)
Hoffman v. United States, 341 U.S. 479, 486,
71 S. Ct. 814, 95 L. Ed. 2d 1118 (1951)

20,21,23,24

21

Hosp v. Scanlon, 473 U.S. 234, 238 n.l, 105 S. Ct. 3142,
87 L. Ed. 2d. 171 (1985)

12

Int'l. Union v. Bagwell, 512 U.S. 821, 833, 114 S. Ct. 2552,
129 L. Ed. 2d. 642 (1994)

25

Jones v. Moore, 986 F.2d 251, 253 (8th Cir. 1993)

23

Kahle v. Leonard, 2006 U.S. Dist. LEXIS 34588 (D.S.D. 2006)

12

Lewis v. Casey, 518 U.S. 343,116 S. Ct. 2174,135 L. Ed. 2d 606 (1996)

31

Luger v. Edmondson Oil Co., 457 U.S. 922, 102 S. Ct. 2744,
73 L. Ed. 2d 482(1982)

26

Mayorgra v. Missouri, 442 F.3d 1128,1131 (8th Cir. 2006)

19

McCamey v. Am. Behavior Health Sys., 2020 U.S. Dist. LEXIS 120831,
2020 WL 3848051 (D. WA. 2020)

xiv

28

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

McDonnell Douglas Corp. v. Green, 411 U.S. 792, 93 S. Ct. 1817,
36 L. Ed. 2d 668(1973)
McKune v. Lile, 536 U.S. 24, 122 S. Ct. 2017, 153 L. Ed. 2d 47 (2002)
Minnesota v. Murphy, 529 U.S. 420, 104 S. Ct. 1136, 79 L. Ed. 2d 409 (1984)
Monell v. Dep't. ofSoc. Servs of the City ofNew York., 436 U.S. 658,
98 S. Ct. 2018, 56 L. Ed. 2d 452 (1978)
Morrissey v. Brewer, 408 U.S. 471, 92 S. Ct. 2593, 33 L. Ed. 2d 484 (1972)

17
33
10, 14, 16, 22

12
11,33

Myers v. John Deere Ltd., 683 F.2d 270, 272 (8th Cir. 1982)

20

Nei v. Dooley, 372 F.3d 1003 (8th Cir 2004)

24

Neitzke v. Williams, 490 U.S. 319,109 S. Ct. 1827, 104 L. Ed. 2d 338 (1989)

16

Nolan v. Thompson, 521 F.3d 983 (8th Cir. 2008)

15

Patel v. United States Bureau of Prisons, 515 F.3d 807 (8th Cir. 2008)

17

Pembaur v. City of Cincinnati, 475 U.S. 469, 106 S. Ct. 1292,
89 L. Ed. 2d 452(1986)

11

Perry v. Sindermann, 408 U.S. 593, 92 S. Ct. 2694, 33 L. Ed. 2d 570 (1972)

34

Pugh v. Locke (M.D. Ala. 1976) 406 F. Supp. 318

23

Rendell-Baker v. Kohn, 457 U.S. 830,102 S. Ct. 2764,
73 L. Ed. 2d 418 (1982)

27

Sandin v. Conner, 515 U.S. 472, 115 S. Ct. 2293,132 L. Ed. 2d 418 (1995)

29

Saylor v. Nebraska, 812 F.3d 637 (8th Cir. 2016)

22

Scheeler v. City ofSt. Cloud, 402 F.3d 826 (8th Cir. 2005)

11

Scheuer v. Rhodes, 416 U.S. 232, 94 S. Ct. 1683,40 L. Ed. 2d 90 (1974)

19

Scott v. Harris, 550 U.S. 372,127 S. Ct. 1769,167 L. ed. 2d 686 (2007)

32

xv

1

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Seminote Tribe ofFla. V. Florida, 517 U.S. 44, 116 S. Ct. 1114,
134 L. Ed. 2d 252(1996)

14

Sisney v. Reisch, 533 F. Supp. 2d 952 (D.S.D. 2008)
Skinner v. Switzer, 562 U.S. 521, 131 S. Ct. 1289,
179 L. Ed. 2d 233,242 (2011)

13

13, 15,24,33

Slack v. McDaniel, 529, U.S. 473, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000)
Stewart v. Martinez-Villareal, 523 U.S. 637, 118 S. Ct. 1618,
140 L. Ed. 2d 849 (1998)
Tolan v. Cotton, 572 U.S. 650, 134 S. Ct. 1861,188 L. Ed. Ed 895 (2014)
Topchain v. JPMorgan Chase Bank, N.A., 760 F.3d 843 (8th Cir. 2014)
United States ex rel. Shakopee Management Co. v. Pan American Management Co.,
789 F.2d 632 (8th Cir. 1986)
United States v. Balsys, 524 U.S. 666,118 S. Ct. 2218, 141 L. Ed. 2d 575 (1998)

38

38
29, 32, 37
33

38
10, 16

United States v. Crume, 422 F.3d 728 (8th Cir. 2005)

33

United States v. McCormick, 54 F.3d 214 (5th Cir. 1995)

22

USPSBd. of Governors v. Aikens, 460 U.S. 711, 103 S. Ct. 1478,
75 L. Ed. 2d 403 (1983)

36

Van Wyhe v. Reisch, 581 F.3d 639 (8th Cir. 2009)

13

Village ofWillowbrookv. Olech, 528 U.S. 562,120 S. Ct. 1073,
145 L. Ed. 2d 1060 (2000)

15

West v. Atkins, 487 U.S. 42,108 S. Ct. 2250,101 L. Ed. 2d 40 (1988)

28

White v. McKinley, 514 F.3d 807 (8th Cir. 2008)

17

Wilkinson v. Dotson, 544 U.S. 74,125 S. Ct. 1242,
161 L. Ed. 2d 253 (2005)

21

xvi

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Will v. Mich. Dep't. of State Police, 491 U.S. 58,109 S. Ct. 2304,
105 L. Ed. 2d 2304(1989)

20

Willis v. Town of Marshall, 426 F.3d 251 (4th Cir. 2005)

16

Wolffv. McDonnell, 418 U.S. 539, 94 S. Ct. 2936,
41 L. Ed. 2d 935 (1974)

30,31

STATE CASES

PAGE NUMBER

State v. Arabie, 2003 SD 57, 663 N.W. 2d 250 (SD 2003)

29

State v. Korth, 2002 SD 101, 650 N.W. 2d 528 (SD 2002)
STATUTES AND RULES

29
PAGE NUMBER

2 U.S.C.§ 1219

38

28 U.S.C. §§ 1915(e)(2)(B)(ii)

37

28 U.S.C. §1915A

7,37

42 U.S.C. §1983

7

Fed. R. Civ. P. 12

20

Fed. R. Civ. P. 15(d)

7,35

SDCL§ 22-24A-4(3)

4

SDCL§ 24-15A-31

19

SDCL§ 24-15A-34

4

SDCL§ 27-15-27

18

OTHER

PAGE NUMBER

5 C. Wright & A. Miller, Federal Practice & Procedure §1278
SD DOC Policy l-l-E-3

20
16

xvn

r

TABLE OF AUTHORITIES CITED
OTHER

PAGE NUMBER

SD DOC Policy 1-4-A-3

17, 27

SD DOC Policy 1-5-G-2

19

xvii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

I^TFor cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
reported at *7^1? Hs-A.- KffiX*
C
. or^
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[^^freported at
LEJCJS 22 1 ten CP*
. or^
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

L_ to

I_to

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

0/flFor cases from federal courts:
The date on which the United States Court of Appeals decided my case
was AA^rVy \^/ 2oQ.G____
[ ] No petition for rehearing was timely filed in my case.
0<fA timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
2.9s 2-&9J?_____ , and a copy of the
order denying rehearing appears at Appendix AA
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
-----------------------------and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

1

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
- The Supremacy Clause of the Constitution. U.S. Const, art. VI, cl.2, First and
Fourteenth Amendment Rights to Access to Courts, Right to Due Process, Freedom of
association, Access to media, Retaliation by individuals acting under color of state law,
Protections of the Fifth Amendment Right not to self-incrimination, Eighth Amendment
Freedom from harsh /unusual punishment and Eleventh Amendment Right of Absolute
immunity.
- 42 U.S.C. §1983, 28 U.S.C. § 1915A, 28 U.S.C. § 1915(e), SDCL§22-24A-4,
SDCL§ 24-15A-31, SDCL§ 24-15A-34, SDCL§ 27-15-27.

3

STATEMENT OF THE CASE
Petitioner Haider Salah Abdulrazzak ("Abdulrazzak"), was found guilty in a State of
South Dakota jury with possession of Fourteen (14) of Child pornography in violation to SDCL§
22-24A-4(3).
The state court in its written sentence (January 20, 2012) sentenced Petitioner for Counts
I-VI for three years in the state penitentiary with two (2) years suspended for each count.
Petitioner was sentence on Cont VII for three years in the state penitentiary with one year
suspended and no official sentence was imposed for counts VIII - XII. Neither in the oral
sentence nor in the written sentence have any references to any treatment.
After being placed within South Dakota Department of Corrections ("SDDOC"),
Petitioner was issued his Individual Program Directive ("IPD") pursuant to SDCL§ 24-15A-34
which indicated which programs Abdulrazzak must take. Petitioner's IPD was empty from any
references that he must participate in the Special Treatment of Perpetrators ("STOP"); the sex
offender treatment programming. Neither any of the prison staff ever discussed these treatment
conditions, as an element that must participate in while incarcerated or at anytime in the future.
SDDOC would discuss these treatment requirements with others (U.S. citizens)1 who the
circumstances of their convictions similar to Petitioner's, prior to their initial parole release and
will referred to it in their IPD. Petitioner's IPD was signed by Robert Dooley (Warden); Susan
Jacobs (Deputy Warden) and Kim Lipincott (Unit Staff member) (all whom would refer to as
"prison staff).
Petitioner also signed his parole agreement on June 18, 2014, which, have no whatsoever
references that at certain time would undergo the STOP treatment while on parole. After

l

Petitioner is legal immigrant in the U.S. and citizen of Iraq.
4

temporary settlement with immigration officials in Minnesota (Petitioner was granted CAT),
Petitioner returned to South Dakota on his own on April 20, 2016.
Upon returning to the state, SDDOC detained Petitioner in a maximum state prison. After
appointment of Dusti Werner as Petitioner's parole officer, Petitioner's parole conditions were
modified and STOP treatment contract which in part required Petitioner for the first time to admit
committing the crimes under which was on parole since June 25, 2014.
Petitioner was threaten with parole revocation consequences to be included imposing the
suspend sentence and to add the period while Petitioner was on parole (June 25, 2014 - April 20,
2016) to be incarcerated in state prison if he refused to sign both.
Petitioner facing these threats signed the modified parole conditions on April 29, 2016,
and the STOP contract. However Petitioner informed SDDOC as well the treatment provider
Joshua Kaufman that he is not and will not admit the guilt under whatsoever circumstances or
will provide any statement that may incriminate him. Petitioner's statement was documented.
Petitioner had weekly visits with both the parole agent Werner and the treatment provider
Kaufman at the parole officer's office since the modified parole agreement gave same authority
to both individuals in supervising him.
Petitioner invoked his Fifth Amendment right to refuse to incriminate himself and faced
with all different kinds of harassments and retaliations by both Werner and Kaufman to gain
incriminating statements; these including complete denial to immigration courts and state courts
to permit him working on his pro se habeas claims. Petitioner was not permitted to access the
prison law library (as he was parolee) and was not given in community free hours to research and
holding his digitally stored legal documents (unless first the parole agent access to them) and
denied me any legal assistant to help fight the modified parole conditions.

5

Petitioner was also denied access to any public library, denied access to clean laundry
(for a period during summer time), denied access to trained groups associated with National
Alliance on Mental Illness ("NAMI") to treat his Post Traumatic Stress Disorder ("PTSD")2.
Petitioner was denied access to smart-phones and internet to access to any media in his
language (Arabic), denied access to internet for any legal researches. Petitioner was also denied
phone calls to Iraq to talk with his niece (when Petitioner left Iraq she was 3 years old) or to have
video visits with his parents. Petitioner also informed the parole officer supervisor (J.C. Smith)
about these harassments and it was documented.
Petitioner was re-incarcerated on October 27,2016 on allegations related to Petitioner's
refusal to incriminate himself and providing answer that he did not commit the crime. A final
parole revocation hearing was held in front of South Dakota Board of Pardons & Paroles (the
"Board") on March 13, 2016. The Board revoked Petitioner's parole and imposed partial of his
suspended sentence and street time.
Petitioner on April 4, 2017 received a copy of the inventory sheet prepared by Robert
Berthelson and Joseph Siemonsma which included Petitioner's property while on parole as
(Prohibited Materials).
Petitioner however, discovered that several items were missing including cell-phone, cell­
phone charger, cash, and the USB memory drive that contained all his legal documents included
communications with attorneys, drafts of briefs, briefs, and questions and interrogatories
Petitioner prepared for the warden and his witnesses for the state habeas evidentiary hearing and
Petitioner filed promptly grievance asking that his lost materials be given back to him
specifically the USB memory drive and was denied.
2

Petitioner while in Iraq was working for the Collusion Forces inside U.S. military camps and
suffering from severe PTSD due to the threats he faced.
6

Petitioner on April filed his initial complaint under 42 U.S.C.§1983 in South Dakota
District Court alleging six (6) counts of violations to his constitutional rights while on parole and
during his parole revocation hearing. Later on amended his complaint to add new count VII
which included the lost of his digitally stored legal materials.
Pursuant to 28 U.S.C. §1915A, the district court initially screened Petitioner's claims in
July 14, 2017. See Abdulrazzak v. Kaemingk, 2017 U.S. Dist. LEXIS 109287 (D.S.D. Jul. 14,
2017) (Appendix B) and entered judgment dismissing certain claims and defendants and direct
service of other claims on defendants including Robert Berthelson and Joseph Siemonsma.
Petitioner filed motion to submit his Second Amended complaint to rectify any deficiencies
determined by the district court on July 14, 2017 and was granted. Petitioner submitted his
Second Amended Complaint on September 5,2017.
Abdulrazzak however discovered another defendant; Unit C manager (South Dakota
State Penitentiary) Bertsch have participated in his deprivation of access to his legal materials
stored on the USB memory drive when she possessed the items subject of the grievance on
September 28,2017 to mail them and Petitioner submitted a motion to add new defendant,
Bertsch, to Count VII pursuant to Fed. R. Civ. P. 15(d).
The district court screened the second Amended complaint on December 12, 2017. See
Abdulrazzak v. Smith, 2017 U.S. Dist. LEXIS 203817, 2017 WL 6375631 (D.S.D., Dec. 12,
2017) (Appendix C). The new order dismissed some defendants and claims (I and VI) and direct
serves upon others including the treatment provider Joshua Kaufman. Because Kaufman has
relocated himself, the court granted Petitioner's motion for discovery and directed Defendant's
attorney Frank E. Geaghan to provide his address. The court however dismissed both Berthelson
and Siemonsma claiming that Petitioner dropped their names.

7

Petitioner subsequently, on December 18,2017 mailed his motion to reconsider, arguing
in part that he did not drop Berthelson and Siemonsma and that both were named in the body of
the complaint and his motion was merely to add new defendant Bertsch to that Count VII as her
name was not available on September 5, 2017.
On December 20,2017, Atty. Geaghan filed response to the district court order to
provide Kaufman address. The Attorney submitted in part that Kaufman (... has declined in no
uncertain terms, to disclose his current whereabouts), after Werner was able to make a phone call
to inform him about the pending claims.
Petitioner thereafter and prior to the district court rule on his motion to reconsider mailed
(Motion to Appeal) on December 21, 2017 asking for the court instructions and guidelines to
appeal the court judgment entered on December 12, 2017. Petitioner wrote to the court in part
that (... don’t know about the timing if that decision is immediate appealble or should wait until
everything is finished ... wait until the decision made in the motion for reconsider).
However, the district court treated the motion as a notice to appeal (without answering
the question presented) and Petitioner was direct to pay the appellate court fees $ 505.00 by
instilment in its decision entered on January 26, 2018. See Abdulrazzak v. Smith, 2018 U.S. Dist.
LEXIS 13033, 2018 WL 10154277 (D.S.D., Jan. 26, 2018) (Appendix D).
The Eighth Circuit Court docketed the appeal as (Case#: 18-1213) and the appeal was
dismissed for as premature. See Abdulrazzak v. Smith, 2018, U.S. App. LEXIS 21727 (8th Cir.
S.D., Feb. 6,2018) (Appendix J) and later on denied Petitioner motion for rehearing on March
16, 2018. See Abdulrazzak v. Smith, 2018 U.S. App. LEXIS 6754 (8th Cir. S.D., 2018)
(Appendix G). Petitioner on February 13, 2018, filed a motion with the district court asking the
court to enter partial default against Kaufman since he became aware of the allegations against

8

him but decide to hide himself. The motion was denied by the clerk of the court on February 16,
2018, claiming that Kaufman was represented by Attorney Geaghan (Appendix F)
Petitioner Filed motion to reconsider the denial arguing that Atty. Geaghan is not
representing Kaufman and asked the court for any documentation to prove that. Petitioner also
referred the court to Atty. Geaghan response on December 20,2017.
Respondents on February 23,2018 filed their motion for summary judgment arguing in
part for first time that Abdulrazzak's claims against Werner and Smith must be denied as barred
pursuant to Heckv. Humphrey, 512 U.S. 477,114 S. Ct. 2364, 129 L. Ed. 2d 383 (1994) in
connect with Count III.
On September 25, 2018, the court entered its opinion and judgment denying Petitioner's
motion for reconsideration, Petitioner's motion to enter default and default judgment against
Kaufman, granted defendants their motion for summary judgment and re-screened Count VI and
entered new conclusion the Kaufman was not state actor. See Abdulrazzak v. Smith, 2018 U.S.
Dist. LEXIS 164944, 2018 WL 4625409 (D.S.D. Sept. 25, 2018) (Appendix H).
Abdulrazzak shortly thereafter filed motion to reconsider its opinion entered on
September 25, 2018, asking the court in part to reconsider the dismissal Kaufman at the initial
screening as Kaufman did not pled this defense and the court at the initial screening required to
take his claims as true including the Kaufman is a state actor. Petitioner also argued that Heck is
inapplicable in the case beforehand since the factual allegation regard Petitioner's Fifth
Amendment was undisputed. Petitioner on October 12,2018, filed motion to reinstate his
previous appeal (Case#: 18-1213) filed in the Eighth Circuit Court since it was dismissed as
premature, upon final determination his motion to reconsider.

9

The district court entered final judgment denying Petitioner's last motion for
reconsideration on June 5, 2019 Sqq Abdulrazzak v. Werner, 2019 U.S. Dist. LEXIS 221107, WL
6916464 (D.S.D., Jun. 5,2019) (Appendix I), and direct new appeal to be filed and new $505.00
fees be paid. The Eighth Circuit Court denied Petitioner's motion to reinstate his appeal on June
17,2019 (Case# 18-1213) (Appendix J), the district court also denied Petitioner's motion to
reinstate his appeal and new case was filed (Case# 19-2170) (Appendix K).
The Eighth Circuit Court of Appeals affirmed on March 19, 2020. See Abdulrazzak v.
Smith, 798 Fed. Appx. 48,2020 U.S. App. LEXIS 8651 (8th Cir. S.D., Mar. 19,2020)
(Appendix L), and denying Petitioner's motion for rehearing on April 29, 2020. See Abdulrazzak
v. Smith, 2020 U.S. App. LEXIS 13781 (8th Cir. S.D., Apr. 29,2020) (Appendix M)
This Petitioner for Certiorari is followed.

RESONS FOR GRANTING THE WRIT
1. COUNT I
3

In Haines v. Kerner , this Court held that "allegations of pro se complaints are held to
less stringent standards than formal pleadings drafted by lawyers". Furthermore "Section 1983 is
not itself a source of substantial rights; rather it is a mean of vindicating federal rights established
elsewhere". Albright v. Oliver, 510 U.S. 266, 271,114 S. Ct. 807, 127 L. Ed. 2d 114 (1994).
This Court also determined that "A state cannot constitutionally carry out a threat to
revoke probation for a legitimate exercise the Fifth Amendment privilege". Minnesota v.
Murphy, 529 U.S. 420,438, 104 S. Ct. 1136, 79 L. Ed. 2d 409 (1984). See also United States v.
Balsys, 524 U.S. 666, 671,118 S. Ct. 2218,141 L. Ed. 2d 575 (1998):
"The Self-Incrimination Clause of the Fifth Amendment provides that "no person ... shall
be compelled ... to be a witness against himself'. U.S. Const., Arndt. 5. Resident aliens are
3 404 U.S. 519, 92 S. Ct. 594, 30 L. Ed. 2d 652 (1972)
10

considered "persons" for purposes of the Fifth Amendment and are entitled to the same
protections under the Clause as citizens".
Petitioner submitted within the context of his claim that he was a non-U.S. citizen who
was treated differently from other U.S. citizens. Petitioner therefore established he is within a
suspect class and was entitled to close judicial scrutiny. See Graham v. Richardson, 403 U.S.
365, 372, 91 S. Ct. 1848, 29 L. Ed. 2d 534 (1971) (noting that only "classifications ... like those
based on nationality or race, are inherently suspect and subject to close judicial scrutiny").
It is also undisputed that Petitioner had a liberty interest in his statutes as parolee
pursuant to Morrissey v. Brewer, 408 U.S. 471, 482, 92 S. Ct. 2593, 33 L. Ed. 2d 484 (1972) and
that his parole was revoked, in part, due to invoking his Fifth Amendment4. Supervisors'
awareness that Petitioner's parole was revoked, in part, due to invoking his Fifth Amendment
without taking any correctional action, established supervisory liability. See Scheeler v. City of
St. Cloud, 402 F.3d 826, 830 (8th Cir. 2005) (noting that an official who had an actual
opportunity to deliberate may be liable for a substantive due process violation for undertaking
actions that are deliberately indifferent to the constitutional right) (citation omitted).
To the contrary of the lower court determination that defendants were not municipality
See Abdulrazzak, 2017 U.S. Dist. LEXIS 109287 [*6] (D.S.D. Jul. 14, 2017), Petitioner alleged
that defendants were the last decision maker which adopted the parole revocation result without
taking any correctional steps and that they do that only for non-U.S. citizens since they would
discuss the treatment for U.S. citizens prior to their initial parole release. See Pembaur v. City of

4 Although Respondents were not served, on appeal to the Eighth Circuit, an argument
submitted on their behalf that "Appellant... was not similarly situated in all material respect" to
other inmates who were U.S. citizens. Appellant was a citizen of Iraq who was admitted to the
United States as a refugee. There is no indication whatsoever that any other "U.S. citizens" ...
were facing deportation". Appellees' Brief at pp. 27 (submitted to the Eighth Circuit on the 15th
of August 2019).
11

Cincinnati, 475 U.S. 469, 481,106 S. Ct. 1292, 89 L. Ed. 2d 452 (1986) (municipal liability
attaches only where the decision-maker possess final authority to establish municipal policy with
respect to the action ordered). Even if there was no written policy (... a custom is an
unconstitutional action by a municipality which has not received formal approval through they
body's official decision-making). Monell v. Dep't. ofSoc. Servs of the City ofNew York., 436
U.S. 658, 691, 98 S. Ct. 2018, 56 L. Ed. 2d 452 (1978).
The lower court also could consider Petitioner's claim against defendants in their official
capacities as claims against the city of Sioux Falls or the County of Minnehaha. See Kahle v.
Leonard, 2006 U.S. Dist. LEXIS 34588, [*13] (D.S.D. 2006)
(Suits against public employees in their official capacities are legal equivalent of suits
against the governmental entity itself. Accordingly, the court will treat the claims against the
individual defendants in their official capacities as claims against Pennington County).
Affd. Kahle v. Leonard, 477 F.3d 544 (8th Cir. 2007), cert, denied Malone v. Kahle, 128
S. Ct. 201,169 L. Ed. 2d 37 (2007).
Petitioner submitted in his claim that "SD DOC officials would discuss any treatment
requirement... with U.S. citizens several months before their initial parole date to enable them
to invoke their 5th Amendment". (Appendix N, Claim I)
The lower court in its opinion, determined that "The Eleventh Amendment acts as a bar
to Abdulrazzak's monetary damages against defendants in their official capacities" [*47-48]
should fail as municipality are not entitled to the Eleventh Amendment immunity. See
Abdulrazzak, 2018 WL 4625409 (D.S.D. Sept. 25, 2018).
Petitioner submitted that because South Dakota Department of Corrections accept federal
funds for its inmates rehabilitation, its waived their Eleventh Amendment defense for monetary
damages. See Hosp v. Scanlon, 473 U.S. 234, 238 n.l, 105 S. Ct. 3142, 87 L. Ed. 2d. 171 (1985)
("A state may effectuate a waiver of its constitutional immunity by ... waiving its immunity to

12

suit in the contest of a particular federal program"). See Sisney v. Reisch, 533 F. Supp. 2d 952,
984 (D.S.D. 2008) affd. in part, rev'd in part sub nom Van Wyhe v. Reisch, 581 F.3d 639(8th Cir.
2009) and affd. 674 F.3d 839 (8th Cir. 2012) (South Dakota, as defendant, admitted accepting
federal funds for its prisons"). The Eighth Circuit Court of Appeals submitted that ("both the
protection of the religious exercise of prisoners and their rehabilitation are rational goals of
Congress, and those goals are related to the use of federal funds for state prisons". Van Wyhe v.
Reisch, 581 F.3d 639, 651(8th Cir. 2009).
Petitioner further would submit that this Court have not yet determined whether state
parole official are entitled to absolute immunity as a matter of federal law. See Board ofPardons
v. Allen, 482 U.S. 369, 370 n.l, 107 S. Ct. 2415, 96 L. Ed. 2d 575 (1987) (the United States
Supreme Court has not decided whether state parole officials enjoy absolute immunity as a
matter of federal law).
Furthermore, South Dakota Secretary of Corrections, SD DOC Policy Maker, and South
Dakota Bd. of Pardons & Parole Director as Executive Officials are not entitled to absolute
immunity. See Cleavinger v. Saxner, 474 U.S. 193,201,106 S. Ct. 496, 88 L. Ed. 2d 507 (1985)
("For executive officials in general, however, our cases make plain that qualified immunity
represents the norm"). See also Forrester v, White, 484 U.S. 219, 229, 108 S. Ct. 538, 98 L. Ed.
2d 555 (1988) (act of supervising employees and overseeing the efficient operation of an
institution, were not themselves judicial or adjudicative).
Construing Petitioner's claim liberally, petitioner have establish an Equal Protection
claim. See Skinner v. Switzer, 562 U.S. 521, 131 S. Ct. 1289,179 L. Ed. 2d 233, 242 (2011)
(Under the Federal Rules of Civil Procedures, a complaint need not pin plaintiffs claim
for relief to precise legal theory. Rule 8(a)(2) of the Federal Rules of Civil Procedures generally
requires only a plausible 'short and plain' statement of the plaintiffs claim, not an exposition of
his legal argument).

13

Petitioner can also sustain a claim of failure to train individual parole board members
Erlandson and Rau regarding paroles right to refuse to incriminate themselves without facing
parole revocation consequences. See City of Canton v. Harris, 489 U.S. 378, 388, 109 S. Ct.
1197,103 L. Ed. 2d 412 (1989) (the inadequate of police training may serve as the basis for
§1983 liability only where the failure to train amounts to deliberate indifference to the rights of
persons with whom the police came into contact).
The lower court acknowledged that "Declaratory and Prospective relief are available
against state officials in his or her official capacities".2018 WL 4625409 at [*25] (D.S.D. Sept.
25, 2018). The court however submitted that "Abdulrazzak is not entitled to injunctive or
declaratory because he has failed to demonstrate a deprivation of his constitutional right". The
lower court opinion is contradicted with this Court opinion in Murphy as discussed above.
Petitioner in his motion for reconsideration remind the court that he was entitled to new parole
revocation hearing since his parole was revoked due to invoking his Fifth Amendment and he
plainly asked for this relief against Erlandson and Rau in his Second Amended Complaint. See
Bordenkircher v. Hayes, 434 U.S. 357, 363, 98 S. Ct. 663, 54 L. Ed. 2d 604 (1978) ("To punish a
person because he has done what the law plainly allows him to do is due process violation of the
most basic sort"). See also Seminote Tribe ofFla. V. Florida, 517 U.S. 44, 73, 116 S. Ct. 1114,
134 L. Ed. 2d 252 (1996) (Ex Parte Young allows suit to be brought against a state officer in
federal court for the purpose of the Supremacy Clause ...)
The lower court in its opinion in Abdulrazzak, 2019 WL 6916464 [*4-*5] (D.S.D. Jim. 5,
2019) did not deny that Petitioner was entitled for such relief rather than (... this court is not
required to search the record for a claim).

14

Petitioner however did not have to remind the court about what he wrote in his claims
since (the court obligation to read the complaint of a pro se litigant liberally). Haines, 404 U.S. at
520-21. See also Skinner, 179 L. Ed. 2d at 242 (under the Federal Rules of Civil Procedure, a
complaint need not pin Plaintiffs claim for relief to precise legal theory), and petitioner as a nonU.S. citizen parolee, have a constitutional right to refuse to incriminate himself.

Petitioner in his motion for reconsideration asked the lower court to discuss the claim as
Class-of-One Claim. See Engguist v. Dep't. OfAgric., 553 U.S. 591, 601,128 S. Ct. 2146, 170 L.
Ed. 2d 975 (2008) (A class-of-one action may be maintained if a regulation is "applied in a
singular way to particular citizens") (citing Village ofWillowbrook v. Olech, 528 U.S. 562, 564,
120 S. Ct. 1073, 145 L. Ed. 2d 1060 (2000) for the same reasons discussed above. Petitioner
asked for equal treatment with other U.S. Citizens.
The lower court however denied the claim prior to serve upon defendants. The court cited
Nolan v. Thompson, 521 F.3d 983 (8th Cir. 2008) as the controlling legal authority. The court
submitted that "under the analysis in Nolan, Abdulrazzak ... provide no specific examples of
others who were similarly situated but treated differently". Abdulrazzak, 2018 WL 4625409 at
[*24]. In Nolan, the Circuit Court submitted "where plaintiff does not alleged he is a member of
a protected class or that his fundamental rights have been violated, he must prove that defendant
has systematically and intentionally treated him differently". Nolan, 521 F.3d at 989.
Petitioner asserted that while Petitioner's claims dismissed prior to direct service, Nolan
was decided on the summary judgment stage and because Petitioner was treated differently due
to his nationality, he is a suspect class under Graham. As discussed above did not have to present
any exhibits at the initial pleadings. Petitioner also do not have access to other inmates records

15

pursuant to SDDOC Policy 1.1 .E.3(A)(11)5 to prove the intention. See Bell Atlantic Corp. v.
Twombly, 550 U.S. 544,127 S. Ct. 1995,1965 n.3,167 L. Ed. 2d 929 (2007):
('[S]tating ... a claim requires a complaint with enough factual matter (taken a true) to
suggest' the required element. This "does not impose a probability requirement at the pleading
stage", but instead "simply calls for enough facts to raise a reasonable expectation that discovery
will reveal evidence of "the necessary element").
See also Willis v. Town of Marshall, 426 F.3d 251, 263 (4th Cir. 2005):
"In a class-of-one case ... granting of summary judgment was premature ... Because the
district court granted summary judgment before allowing any discovery; Wills had no
opportunity to demonstrate that others situated similarly in this regard were not treated similarly"
It is therefore Petitioner pry to this Court to grant his Petition under the grounds as
discussed above. See Neitzke v. Williams, 490 U.S. 319, 109 S. Ct. 1827, 1830, 104 L. Ed. 2d
338(1989):
"Since dismissal under 28 U.S.C.S. §1915 are made early in the proceeding, before
service of process on the defendant, the trial court should permit the cause of action to proceed to
the responsive pleadings stage, unless there is indisputably absent any factual or legal basis"

Petitioner therefore established he is as non U.S. citizen was entitled to the protection of
the Fifth Amendment protection to refuse to incriminate himself pursuant to Balsys without
facing the consequences of parole revoking for doing so pursuant to Murphy6, similarly to any
other U.S. citizens who their circumstances of conviction similar to his, instead of, being threat
under parole revocation consequences. "In order to establish an equal protection claim, a prisoner
must show that he is treated differently from similarly-situated inmates and that the different
(Offender Access to DOC Records - Restricted Information: Certain offender records that
include an offender records that include ... records of the offender's institutional adjustment and
rehabilitative progress)
6 Petitioner also testified during his jury trial on his own defense he did not commit the crimes
and therefore admitting the guilt now would subject him to new perjury prosecution. Petitioner
also was fighting his conviction in state habeas proceeding and respondents refused to grant him
immunity that his admission would not be used against him in these proceeding or in new trial if
his habeas petition is granted.
16

treatment is based upon either a suspect classification or fundamental right". Patel v. United
States Bureau of Prisons, 515 F.3d 807, 815 (8th Cir. 2008).
Abdulrazzak's allegations that Respondents participation in an unlawful discrimination
act against him was sufficient to state a claim against them that require the claim to be serve
upon Respondents. See McDonnell Douglas Corp. v. Green, 411 U.S. 792, 803, 93 S. Ct. 1817,
36 L. Ed. 2d 668 (1973) ("Petitioner's assigning respondent's participation in unlawful conduct
against him as the cause for his rejection ... was suffices to discharge petitioner's burden of proff
at this stage and to meet respondent's prima facie case of discrimination")
2. COUNT II:
Petitioner named the Prison Warden, Prison Associate Warden and Prison Unit Staff
Member as defendants' individuals who signed Petitioner's IPD, all together with the Parole
Board director, supervisor, and parole agent and the treatment provider all are member of the
same Sex Offender Management Program ("SOMP") team as defined by SD DOC Policy 1-4-A3 (III) conspired with each other to deny Petitioner right to invoke his Fifth Amendment timely
and without facing the threat of parole revocation consequences.
All defendants pursuant to SD DOC Policy l-4-A-3(3) (C) knew about Petitioner's risk
criteria (2 YWD) which required him to take the treatment and therefore the named defendants
prison staff are liable under §1983 and therefore the individuals prison staff are liable under
§1983 for violation of Petitioner's Due Process and Equal treatment Clauses. See White v.
McKinley, 514 F.3d 807, 817 (8th Cir. 2008):

7 SD DOC Policy l-4-A-3(III) defined SOMP team: The Sex Offender Management Program
SOMP is delivered by the SOMP team, which consist of the program manger, clinical director,
counselors, unit staff, transitional case managers, parole agents and community treatment
providers.
17

"For claim of conspiracy under 42 U.S.C.S. §1983, the plaintiff need not show that each
participant knows the exact limits of the illegal plan, but the plaintiff must show evidence
sufficient to support the conclusion that the defendants reach an agreement to deprive the
plaintiff of constitutionally guaranteed rights".
Petitioner also submitted for the same reasons discussed in COUNT I he is entitled that
his claim to be construed under Class-Of-One action.
The lower court dismissed the Parole Board Director and supervisor claiming "... The
proposed second amended complaint does not that they had personal involvement in the alleged
deprivation" Abdulrazzak, 2017 WL 6375631 at [*5] (D.S.D., Dec. 12, 2017). See also
Abdulrazzak, 2018 WL 4625409 [*25-*27] (D.S.D. Sept. 25,2018) (same).
Petitioner however put all the named defendants under the same category who denied
him his Fifth Amendment Right and Due Process. It is therefore where the court sustained a
claim against the parole agent; the same facts are true against the other individuals.
Furthermore, respondents alleged in their motion for summary judgment that "the
supervision agreement are prepared by the director ..." [Brief Page 10 In support of motion for
summary judgment filed on February 23, 2018]". This Statement by itself supports Petitioner's
allegation against the Parole Board Director who hide the treatment requirement from the initial
parole agreement (signed June 18, 2014).
The lower court also granted the parole agent absolute immunity and summary judgment
because the officer was not the parole agent on June 28,2014. However, Petitioner alleged that
the agent is not entitled for absolute immunity for modifying and enforcing the treatment
requirements after April 20, 2016 after her appointment. See Farrell v. Burke, 449 F.3d 470,484
(2nd Cir. 2006) (personal involvement requirement is satisfied when defendant parole officer
enforces a condition, even when the condition had been imposed by another parlor officer).

18

Because Petitioner was parolee at the time of imposing the treatment, it was the parole
agent who set "the offender parole requirement" pursuant to SD DOC Policy l-5-G-2(9)(F)8.
Because Petitioner's parole was set on June 18, 2014, the parole conditions should be modified
after April 20,2016. For the parole agent to be entitled to absolute immunity she had to "have
concurrence of two board member pursuant to SDCL§24-15-27 and to forward a request for
parole modification to the executive director of the board for approval pursuant to SDCL §2415A-31.
Because the parole agent failed to follow either step, she is not entitled to absolute quasi­
judicial immunity. Also because she was not the person who set the conditions on June 18, 2014
she was not the person who set Petitioner's early release conditions. See Mayorgra v. Missouri,
442 F.3d 1128, 1131 (8th Cir. 2006) (absolute immunity applies if parole officers have the power
to attach conditions to prisoner's early release).
It is therefore because a genuine issue related to the parole agent enrolment as her
statements contradict with the official policies and Werner is not entitled for summary judgment.
Neither the parole board director is entitled for absolute immunity at the time of imposing
the parole conditions on June 18, 2014 since Petitioner is challenging defendants for
unreasonable delay to take action of informing him about the treatment requirement in the future.
See Scheuer v. Rhodes, 416 U.S. 232, 242-43, 94 S. Ct. 1683, 40 L. Ed. 2d 90 (1974) (public
officials, whether governors, mayors or police, legislators or judges, who fail to make decisions
when they are needed ... do not fully and faithfully perform the duties of their offices).
Even if to say absolute immunity is bar for any monetary damages, its not a bar for
declaratory and injunctive relieves and direct defendants to disclose the treatment with non-U.S.
8

SD DOC Policy l-5-G-2(9)(F) provides in part "the parole agent shall set the offender parole
conditions/requirement; i.e. CD ... and programming requirements and opportunities"
19

citizens prior to their initial parole release and inform them about the STOP programming to be
taken upon any settlement with immigration. See Will v. Mich. Dep't. of State Police, 491 U.S.
58, 64-70,109 S. Ct. 2304,105 L. Ed. 2d 2304 (1989) (Because suits seeking prospective relief
against state official capacities are not treated as suits against the state, plaintiffs may seek such
relief under §1983 (id at 71 n. 10).
3. COUNT III:
A)

The lower court initially determined that Petitioner sustained a claim of retaliatory against
both the parole agent (Dusti Werner) and the parole supervisor (J.C. Smith) for preparing the
parole violation report due to, in part; Petitioner's refusing to incriminate himself. See
Abdulrazzak, 2017 WL 6375631 [*10] (D.S.D., Dec. 12, 2017).
On January 17, 2018, Respondents (except Kaufman) filed their answer to Petitioner's

second amended complaint. However, in nowhere in that answer any references that Petitioner's
claim was barred under pursuant to Heck
Petitioner in his motion to oppose the summary judgment submitted that pursuant to Fed.
R. Civ. P. 12 (h) the defense of Heck is barred sine it was not raised in defendants' answer.
"Failure to plead an affirmative defense in the answer results in "the waiver of the defense and its
exclusion from the case". 5 C. Wright & A. Miller, Federal Practice & Procedure §1278, at 339
(1969); see Myers v. John Deere Ltd., 683 F.2d 270,272, 73 (8th Cir. 1982).
Because Defendants failed to plead the Heck defense, the lower court abused it discretion
by permitting defense it was never pled. Even if the lower court determined that defendants pled
and argue the claims under Heck Petitioner claims are not barred by Heck

20

In Heck, "the allegations were that the state officials had conducted an arbitrary
investigation, had knowingly destroyed exculpatory evidence, and had caused an illegal voice
identification procedure to be used at the plaintiffs trial. Heck, 512 U.S. at 479.
Similarly in Edwards v. Balisolc}, this Court noted "where the basis for the attacking the
judgment is not insufficiency of evidence, it is irrelevant". This Court concluded that
"respondent's claim for declaratory relief and money damages, based on allegations of deceit and
bias on the part of the decisionmaker that necessarily imply the invalidity of the punishment
imposed is not cognizable under §1983). Petitioner in the case beforehand did not alleged that his
parole officer had lied in her parole revocation report and it is undisputed that Petitioner's parole
was revoked, in part, due to his refusal to incriminate himself.
The parole agent wrote in the parole revocation report:
"... Mr. Abdulrazzak was non-complaint in regards to his sex offender programming and
was subsequently terminated from community base sex offender programming. He was in
programming for 5 months and continued to deny his offense". Id.
The parole agent even went further when she recommended "Mr. Abdulrazzak not be
considered for parole again until... admitting to his offense". (Parole revocation report)
Petitioner also doesn't deny that he refused to present answers that may incriminate him
or could be used to bring new criminal charges in the future and therefore petitioner. See
Hoffinan v. United States, 341 U.S. 479,486, 71 S. Ct. 814, 95 L. Ed. 2d 1118 (1951)
(Compelled testimony is self-incriminating if reasonable cause exist to believe that the testimony
would either support a conviction or provide a link in the chain of evidence leading to a
conviction). See also Adams v. Agneil, 40 F.3d 643, 645 (8th Cir. 2005) (pursuant to Dotson10, a

9 520 U.S. 641, 644,117 S. Ct. 1584,137 L. Ed. 2d 906 (1997)
10 Wilkinson v. Dotson, 544 U.S. 74, 82, 125 S. Ct. 1242,161 L. Ed. 2d 253 (2005)
21

parole challenge fell "within the narrow class of cases in which a prisoner can filed a Section
1983 action seeking equitable relief').
It is also unnecessary for new court opinion that that "A state cannot constitutionally
carry out a threat to revoke probation for a legitimate exercise the Fifth Amendment privilege" as
this right was established in this Court proceeding. See Murphy, 529 U.S. at 438.
Even assuming that the challenge to the condition of invoking the Fifth Amendment was
barred under Heck, the parole revocation report contained two counts of violations SA13E and
SA10, its therefore having new parole revocation hearing is not necessary mean certain release
since it is well established "when reviewing decision to revoke supervised release based on
several alleged violations, records need only support a violation of a single condition of release
in order to upheld by appellate court". United States v. McCormick, 54 F.3d 214, 219 n. 3 (5th
Cir. 1995), cert, denied 516 U.S. 902, 116 S. Ct. 264,133 L. Ed. 2d 187 (1995).
B)

Within the context of COUNT HI, Petitioner submitted several claims ofretaliation

by his parole agent (conspiring with the treatment provider (Kaufman) and supervisor (Smith))
that it is unrelated to the allegations of the parole revocation report or the parole board decision.
Petitioner submitted that his parole agent who lacked medical training denied him access
to National Alliance on Mental Illness (NAMI) to seek assistance in treating his mental disability
PTSD. This allegation is documented in the exhibits presented by Defendants in their motion for
summary judgment. See Defendants' exhibit 30, Narrative 26-JUN-16:"... Asked about time to
go to an elective PTSD class, told that it was not treatment recommended by the prison and
currently he is allowed work and treatment hours ...".Id.
It is well settled that "PTSD has been held to be serious medical condition". Saylor v.
Nebraska, 812 F.3d 637, 643-44 (8th Cir. 2016) and a claim of deliberate indifference to

22

Petitioner's mental health can be sustained. See Estelle v. Gamble, 429 U.S. 97,104-05, 97 S. Ct.
185, 50 L. Ed. 2d 251 (1976) (Prison officials who are not medical providers can exhibit
deliberate indifference to serious medical needs by intentionally denying access to care..." See
also Jones v. Moore, 986 F.2d 251, 253 (8th Cir. 1993) (a parolee state a claim of deliberate
indifference to serious medical need by alleging that a parole officer interfered with the parolee's
attempts to receive medical care).
Petitioner also would submit that the parole agent denial of access to NAMI can
constitute a denial to the First Amendment freedom of association and Fourteenth Amendment
due process without penological interest. See Beard v. Banks, 548 U.S. 521, 528, 126 S. Ct.
2572, 165 L. Ed. 2d 697 (2006):
"A prison regulation that impinges upon freedoms protected by the Federal Constitution's
First Amendment is invalid if the regulations is (1) not reasonably related to legitimate
penological interests, or (2) exaggerated response to such objectives"
Petitioner also submitted that his parole agent (Werner) denied his access to clean
laundry in summer due to his refusal to present answers that may incriminate him and was well
documented. See Defendant Exhibit #30 Narrative 9-AUG-16 "... he was denied extra hours to
Thursday to do his laundry as he was told he would get them when he complete his assignemts
(sic)". Petitioner has a constitutional right to access to clean laundry since "federal courts
acknowledge the necessity for providing clean clothing and bedding on a regular basis. Pugh v.
Locke (M.D. Ala. 1976) 406 F. Supp. 318, 334, affd, in part on other grounds, (1978) 433 U.S.
781, 98 S. Ct. 3057, 57 L. Ed. 2d 1114 (per curiam).
Petitioner also alleged as retaliation, the parole agent by keeping a GPS devise on him at
all times only because he refused to incriminate himself, causing a bill of about $1,100.00 that he
must pay. This incident also well documented by defendants' Exhibit #30 Narrative 26-JUN-16:
"... GPS will not be removed yet as he is not complying with treatment".

23

The parole agent also retaliated against Petitioner for invoking his Fifth Amendment and
requesting for an attorney during a polygraph examination on October 19,2016 by directing him
to go back to his unit any denying him hours to search for a job .See Nei v. Dooley, 372 F.3d
1003, 1007 (8th Cir 2004):
"Conduct that retaliates against the exercise of a constitutionally protected right, even if
the conduct would have been proper if motivated by different reason. To be actionable, the
retaliatory conduct need not be unconstitutional".
Because none of these claims may effect the parole revocation its not barred under Heck
and petitioner was entitled to liberally construing his claims under Skinner.
Petitioner respectfully pray to this Court to grant his Petition to address the Heck's bar to
Petitioner's challenges where there was no disagreement on the allegation of the parole
revocation report and as to his other retaliatory claims.
4.

COUNT IV:

After its initial screening, the lower court sustained a claim of deliberate indifference to
his serious medical need against the treatment provider (Kaufman). See Abdulrazzak v.
Kaemingk, 2017 U.S. Dist. LEXIS 109287 [*16](D.S.D. Jul. 14, 2017). Because of Kaufman
moved to out of the state, the lower court directed that the state attorney office to cooperate with
the U.S. Marshals to present his current whereabouts. See Abdulrazzak, 2017 WL 6375631 at
[*14] (D.S.D., Dec. 12,2017).
The state attorney general office presented within the context of their answer to the court
order on December 20,2017 that:
"... It is counsel's understanding that Wemer has, in the past, contacted Kaufman in
regards to the Order issued by the Court on December 12, 2017. Counsel, however, has further
been advised that Kaufman has declined, in no uncertain terms, to disclose his current
whereabouts. The undersigned attempt to contact Kaufman based on the telephone number
provided but said efforts have not been successful". Id.

24

As discussed above, Petitioner filed motion to enter default against Kaufman which was
denied by the clerk and Petitioner filed a motion to reconsider since Atty. Geaghan was not
presented Kaufman and nothing in the records reflects was planning to file answer after
becoming aware of the proceeding.
This district court in its opinion entered on September 25, 2018. See Abdulrazzak v, 2018
WL 4625409 [*33] (D.S.D. Sept. 25, 2018) submitted that: "To date, Kaufman has not been
served. Default cannot be entered against a party who has not been served. Abdulrazzak v, 2018
WL 4625409 [*33],
The lower court ignored totally its order directing the state attorney office to provide
Kaufman address and the records reflected that Kaufman became aware and refused to obey the
court orders. This Court permitted sanctions against a party who willfully refused to obey court
orders related to discovery. See Int’l. Union v. Bagwell, 512 U.S. 821, 833, 114 S. Ct. 2552, 129
L. Ed. 2d. 642 (1994) (Courts traditionally have board authority means other than contempt...
such as ... entering default... to penalize a party's failure to comply with rules of conduct
governing the litigation process).
The lower court should not reward a defendant who intentionally decided to refuse a
court order by dismissing the claim against him. See also FMC v. S.C. State Ports Auth., 535
U.S. 743, 758, 122 S. Ct. 1864,152 L. Ed. 2d 962 (2002) (A party failing to obey orders .. .of
proceeding is subject to verity of sanctions, including the entry of default judgment. Fed. R. Civ.
P.37)
The court analyzed defense that was never pled by Kaufman that he was not a state actor,
citing Gross v. Samudio, 630 F. Appx. 772, 778-79 (10th Cir. 2015) which held that: "Private sex

25

offender provider did not act under color of state law when sex offender treatment provider
refused to admit a parolee into sex offender treatment." ,2018 WL 4625409 at [*50].
Initially, the cited case is inapplicable to the beforehand case. While the defendant in
Gross had responded to the allegation, Kaufman failed to do so. See Foulk v. Charrier, 262 F.3d
687, 697 (8th Cir. 2001) (it is the burden of the defendant asserting an affirmative defense to
plead and prove it).
Abdulrazzak furthermore, is not challenging Kaufman being "refused to accept him in
treatment due to his invoking Fifth Amendment" as Kaufman already accepted Petitioner into
treatment. See the parole conditions; see also Defendants' Exhibit #2 which agreed that: "to
attend and participate in weekly-individualized supervision meetings with my treatment provider
and parole officer".
Petitioner also submitted his modified parole agreement which referred to in the lower
court opinion Abdulrazzak v, 2018 WL 4625409 at [*6-*8].
Both the modified parole agreement as well Defendants' Exhibit #1 provided clear
evidence that the parole agent (Wemer) and the treatment provider (Kaufman) had the same
authority to supervise petitioner considering the fact that all the visits with the treatment provider
occurred inside state government office (the parole office building) and all incidents occurred
while petitioner was under the supervision of Kaufman and Wemer. See Luger v. Edmondson Oil
Co., 457 U.S. 922, 936-37,102 S. Ct. 2744, 73 L. Ed. 2d 482 (1982) (defendant who "acted
together with or has obtained significant aid from state officials, "though not an officer of the
state, is a state actor"). See also Acad v. Tenn. Secondary Sch. Ath. Ass'n., 531 U.S. 288, 296,
121 S. Ct. 924,148 L. Ed. 2d. 807 (2001):
"The challenged activity may be state action when it result from the state's exercise of
encouragement, either overt or covert,... when a private actor operates as willful participant in

26

joint activity with a state or its agents,.. .when it is controlled by an agency of the state, when it
has been delegated a public function by the state, when it is entwined with governmental
policies, or when government entwined in its management or control".
The lower court misinterpreted this Court opinion in Rendell-Baker v. Kohn, 457 U.S.
830, 102 S. Ct. 2764, 73 L. Ed. 2d 418 (1982) when it cited Reinhardt v. Kopcow, 65 F.3d 1164,
1172 (D. Colo. 2014) (sex offender treatment is not traditional and exclusive function of the
state). See Abdulrazzak, 2018 WL 4625409 at [*49-*52], The lower court cannot conclude that
because a private party running a business similar to the state, would not make him a state actor
regardless the level of cooperation with the state because that business became not traditional
and exclusive of the state.
Petitioner previously that SDDOC Policy 1-4-A-311 gave treatment providers same level
in supervising parolees, as a member of the SOMP team. The attachment 5 (from n. 9) is the
standards that the DOC requires treatment providers to follow in treating inmates. Exhibit #29
(presented by Respondents) (Dusti Wemer) provided in part: Narrative 21-JUN-16: "signed
agreement with Josh that if we make no progress in his treatment in a year from when he
released, we can terminate his treatment".
A reasonable fact finder can determine from the word (we) that both Wemer (the parole
agent) and Kaufman (treatment provider) worked on the same level of conspiracy in supervising
and terminating Petitioners from treatment as a retaliatory act due to invoking his Fifth
Amendment under. See Dennis v. Sparks, 449 U.S. 24, 27-29, 101 S. Ct. 183, 66 L. Ed. 2d 85
(1980) ("A private party who conspires with a state actor may act under color of state law").

11 SD DOC Policy l-4-A-3(IV)(6)(C)(l) provides: (The DOC will work with community
treatment and services to identify sex offender within the community) and
SD DOC Policy l-4-A-3(IV)(6)(C)(2) provides: (Community treatment must be consisted with
the standards set with the SOMP treatment providers standards (Attachment 5)
27

Petitioner pry to this Court to grant his Petitioner to discuss the matter of individuals who
decided to hide themselves to prevent service and treatment providers for parolee when acting
together with parole agents in supervising Petitioners pursuant agreement its terms set by the
Department of Corrections and in conjunction with this Court opinion in West v. Atkins, 487 U.S.
42, 108 S. Ct. 2250, 101 L. Ed. 2d 40 (1988) (private physician acted under color of state law
because under contract with state to provide medical services for prisoners)12.
Petitioner submitted other allegations of violations committed by Kaufman in conspiring
with the parole officer. The lower court abused its discretion by denying defendant responsibility
in these actions instead of taking the allegations as true pursuant to Bell Atlantic Corp.
5. COUNT V;
This Court in Anderson v. Liberty Lobby, Lnc13., held that:
"At the summary judgment stage, the judge's function is not himself to weight the
evidence and determine the truth of the matter but to determine whether there is a genuine issue
for trial". Anderson, All U.S. at 249.
Within the context of Anderson this Court also noted:
"The issue of material fact required by Fed. R. Civ. P. 56(c) to be present to entitle a
party to proceed to trial is not required to be resulted conclusively in favor of the party asserting
its existence; rather, all that is required is that sufficient evidence supporting the claimed factual
dispute to show to require a jury or judge to resolve the parties' differing versions of the truth at
trial". Anderson, All U.S. at 248-49.

12 Several Circuit Courts started to dissociate themselves from this Court holding about
treatment providers to state inmates. See McCamey v. Am. Behavior Health Sys., 2020 U.S. Dist.
LEXIS 120831,2020 WL 3848051 [*11] (D. WA. 2020) (citing different cases and the case
beforehand and concluding (allegation of contractual relationship between mental health
treatment provider and department of corrections inadequate to state a claim).
13 477 U.S. 242, 249,106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986)
28

Furthermore, "in making the determination that a party is entitled to summary judgment
as a matter of law, a court must view the evidence "in light most favorable to the opposing
party". Tolan v. Cotton, 572 U.S. 650, 656-57,134 S. Ct. 1861, 188 L. Ed. Ed 895 (2014).
A reasonable fact finder can determine that a defendant using his attorney's computer is
inapplicable. Petitioner would submit that his appointed attorney have contacted the parole
officer to inform her "I am not certain. I told him to discuss it with you as I am not certain how
much work he wants to put into it". (Respondent Exhibit #19; Narrative 7-JUN-16).
The lower court also determined that Petitioner was not denied access to courts in doing
his habeas because "he has an appointed attorney". See Abdulrazzak, 2018 WL 4625409 at [*44]
(D.S.D. Sept. 25, 2018). Petitioner submitted that he had a liberty interest granted to him by state
laws and courts proceeding to present his pro se habeas claims under ("Korth Brief'). See Sandlin
v. Conner, 515 U.S. 472, 483-84,115 S. Ct. 2293,132 L. Ed. 2d 418 (1995) ("A protected liberty
interest can be created by "state and federal statutes and regulations"").
Under Korth Brief, the State Supreme Court noted that:
"In cases where court appointed counsel representing an indigent defendant on appeal
determines that the case does not raise any arguably meritorious issues, counsel need not move to
withdraw even if the appeal is entirely frivolous".
State v. Arabie, 2003 SD 57, 663 N.W. 2d 250, 253-54 (SD 2003).
The State Supreme Court adopted this Court opinion in Anders v. State of California, 386
U.S. 738 S. Ct. 1396,18 L. Ed. 2d 493 (1967). See State v. Korth, 2002 SD 101, 650 N.W. 2d
528, 531 (SD 2002), and permit individuals pro se who represented by an appointed attorney to
present their own claims independently from their attorney. The State Supreme Court noted that
"it is the client, not counsel, who controls the presentation of issues in section B of a brief'.
Arabie, 650 N.W. 2d at 55-56.

29

Petitioner would submit that the parole agent (conspiring with Kaufman) denied him
proper access to in community hours to write his briefs as a matter of retaliation and it's well
documented when she submits (... Iam not inclined to give them ... as we currently working on
tightening things up at Unit C". (Respondent Exhibit #18)
The lower court determined that petitioner obtaining his parole agent to use his hand to
write his briefis insufficient for a fact finder to determine that petitioner's need to use a computer
because his hand-writing was bad [Respondent Exhibit #28], as the records full with exhibits that
he proceeded almost in each district court level hand-writing his motions and brief and the
computer need is to access to his legal materials without unreasonable harassment.
The court found that Respondent did not deny Petitioner's access to courts because "the
officer offer to print off the documents" See Abdulrazzak, 2018 WL 4625409 at [*44-*45].
Petitioner however, have an undisputed right to privacy in his legal communication. See Wolff v.
McDonnell, 418 U.S. 539, 577, 94 S. Ct. 2936,41 L. Ed. 2d 935 (1974) ("it is long established
that those in state custody have a right to privacy in their legal mail").
The lower court also submitted that "the records contains numerous examples of Werner
looking for away Abdulrazzak could use a computer". "See Abdulrazzak, 2018 WL 4625409 at
[*44](D.S.D. Sept. 25, 2018). The records however, are empty from such examples. However,
the record contained three copies of same exhibit presented by Respondent; these are [Exhibits
#19, #26 and #37). A reasonable jury could easy determine that presenting three copies of same
exhibit do not constitute numerous examples.
Petitioner submitted that his right of access to courts was violated by Respondents when
the agent required individuals from Kingdom Boundaries (a half-way house) to look at the
monitor of the computer while petitioner was working on the day the parole agent permitted

30

Petitioner to use a computer. See [Respondent Exhibit # 20; Narrative 6-JUN-16: Mr. Heider
(sic) can access Kingdom Boundaries computer on 7/7/16. KBPA personal will be around and
monitor him during use via multiple views screens..." A reasonable jury can determine that the
parole agent violated Petitioner's rights to privacy in his legal communication with his attorney
and court giving defendants advance of first-hand access to his legal documents preparation.
Petitioner has no attorney in his immigration case. The lower court determination that his
parole officer offering to print off these document. "See Abdulrazzak, 2018 WL 4625409 at
[*45](D.S.D. Sept. 25, 2018). Petitioner as submitted previously, under no circumstance he will
permit his parole officer to have as she want access to his legal materials (both immigration and
habeas stored in same devise) without his supervision under Wolff.
The records also contained exhibits that the parole agent completely denied Petitioner any
reasonable access to either prison law library [Respondent Exhibit #26] or any public library
[Respondent Exhibits #19, #28] or any access to any legal assistance to challenge the
modification of his parole agreement.. See [Respondent Exhibit #40]:
"... He just called and stated that he needs time tomorrow to find a lawyer to deal with
his 'hours' situation. I told him I can only give him hours for treatment and meetings with his
lawyer and ICE. I just wanted to keep everyone updated as every time we give him an answer he
does not like, he cries lawsuit".
See Close v. Weber, 238 F.3d 1018, 1022 (8th Cir. 2001) (Arbitrary parole conditions
violate the constitution). Petitioner have undeniable access to courts to challenge the conditions
of his confinement (parole conditions) as determined by this Court. See Lewis v. Casey, 518 U.S.
343, 355,116 S. Ct. 2174,135 L. Ed. 2d 606 (1996) ("The tools is requires to be provided are
those that the inmates need in order to attack their sentence, directly or collaterally, and in order
to challenge the conditions of their confinement").

31

Petitioner would submit in nowhere in his parole conditions prohibited him from access
to public library and there is no sold determinations among Circuit Courts that denied any and all
individuals convicted with sex crimes from access to public libraries. A New Mexico district
court discussed the denying of individuals sex offender to public libraries in the context of
different Circuit Courts and the United States Supreme Court and reached decision "that the city
of Albuquerque be hereby is ENJOINED from enforcing the terms of the Administrative
Instruction banning registered sex offender from public libraries". Doe v. City ofAlbuquerque,
2010 U.S. Dist. LEXIS 158477 (D.N.M. Mar. 31, 2010).
Petitioner would submit that the parole agent (conspiring with Kaufman) denied him
proper access to in community hours to write his briefs as a matter of retaliation and it's well
documented when she submits (... I am not inclined to give them ... as we currently working on
tightening things up at Unit C". (Respondent Exhibit #18) because she believed that Petitioner
was "...telling stories about his paperwork..." [Respondent Exhibit 28]. See Blaise v. Fenn, 48
F.3d 337, 340 (8th Cir. 1995) (An exception to the rule of prejudice is when a systematic denial
of inmates' constitutional right of access to courts is such fundamental deprivation that it is an
injury in itself).
Because the lower court granting Respondent a summary judgment and finding of facts is
contradict with the evidence and a genuine issues exist, Petitioner pry to this Court to grant him
the Petition and direct reversal under Tolan. See also Scott v. Harris, 550 U.S. 372, 380, 127 S.
Ct. 1769,167 L. ed. 2d 686 (2007):
("When opposing parties tell two different stories, one of which is bluntly contradicted
by the record, so that no reasonable jury could believe it, a court should not adopt that version of
facts for purposes of ruling for summary judgment").
6. COUNT VI:

32

*

I

!

Petitioner submitted within the context of this claim that the violations set "to force me to
admit the guilt..." and imposing or enforcing ".. .such like discretionary restricts constitute a
greater deprivation to my 1st Amendment granted to others"
The lower court however dismissed the claim at the screening level pursuant to McKune
v. Lile, 536 U.S. 24,122 S. Ct. 2017, 153 L. Ed. 2d 47 (2002) and holing therefore it does not
constitute coercive. Abdulrazzak, 2018 WL 4625409 at [*29 - *30] (D.S.D. Sept. 25,2018).

i
"•1

Abdulrazzak however submitted to the lower court that his situation conditions as
parolee"... very different from that of confinement in prison ..." Morrissey v. Brewer, 408 U.S.
471,482,92 S. Ct. 2593,2601, 33 L. Ed. 2d 484 (1972) therefore are different from is very
different from these in McKune who was confined in prison.
Petitioner submitted that under federal laws his parole conditions "... must involve no
greater deprivation of liberty than is reasonably necessary to adverse deterrence ..." United
States v. Crume, 422 F.3d 728, 733 (8th Cir. 2005).
Petitioner in the alternative submitted to the lower court that he is entitled that his claims
to be liberally construed, his claim can construed as retaliation for invoking his Fifth
Amendment as these conditions were not exist at the initial parole agreement under Skinner. See
also Topchain v. JPMorgan Chase Bank, N.A., 760 F.3d 843, 849-50 (8th Cir. 2014), which
determined:
"A complaint should not be dismissed merely because a plaintiffs allegations do not
support the particular legal theory he advances, for the court is under a duty to examine the
complaint to determine if the allegations provide for relief on any possible theory".
This Court in McKune noted that:
"No one contented, however, that the transfer is intended to punish prisoners for
exercising their Fifth Amendment Rights. Rather, the limitation on these rights is incidental...
Due to limited space".

33

i

1

■t

It is also undisputed that Petitioner on November 13, 2017 mailed a motion to the lower
court to supplement the records in connect with Count VII to add new defendant pursuant to Fed.
R. Civ. P. 15(d) as her name was unknown previously and she participated (conspired) with
name defendants when she possessed the missed items. See Griffin v. County School Bd. of
Prince Edward County, 377 U.S. 218, 227, 84 S. Ct. 1226, 12 L. Ed. 2d 256 (1964) (A party may
supplement a pleading under Fed. R. Civ. P. 15(d) to add new parties when events occurring
after the original pleading have been filed makes it necessary to do so).
The new named defendant was Jeannie Bertsch (F/N/U/ Bertsch) her name became
available when she signed the ("Prohibited Property, Disposition") (Respondent Exhibit #15)
which contained some of the missed materials from Petitioner's Back-Bag (Petitioner's Exhibit
#11) excluding the USB memory drive which contained Petitioner's legal documents.
It is therefore in nowhere in Petitioner's complaint a submission asking the lower court to
drop either Siemonsma or Berthelson. Although the district court directs service upon them, the
court dismissal of defendants prior to the summary judgment is premature.
It is because as determined by the district court Petitioner submitted sufficient facts to
state a claim against Siemonsma and Berthelson and a service directed upon them on July 14,
2017 and no change in the allegations against them, the lower court abused its discretion for
dismissing defendants prior to the summary judgment.
The lower court also granted Bertsch summary judgment by accepting as true that she did
not participated in the deprivation because "Bertsch was not working in Unit C at the time the
USB was lost. See Abdulrazzak, 2018 WL 4625409 [*46] (D.S.D. Sept. 25,2018), to the
contrary of what Petitioner's alleging against Bertsch.

35

Petitioner did not allege that Bertsch liability because she was a supervisor in Unit C on
October 27,2016, rather than her possess the prohibited materials on September 28,2017, to
mail them out. (Respondents Exhibit #16) so Bertsch abstain from the Unit on October 27, 2016
is irrelevant.
Petitioner submitted to the lower courts that (materials do not appear from nowhere...)
[Petitioner's brief in opposing to Defendants' motion for summary judgment; filed with the
district court April 6th, 2018, pp. 34) and that somebody should hand her these materials which
she concealed their identity from her affidavit and where she previously claimed she is unaware
about the lost materials. (Petitioner Exhibit #11).
Furthermore, Bertsch intentionally submitted wrong [undisputed fact #159-163, pp. 33
(mistakenly referred to by defendant as# 155-159)]. The cell-phone discussed by Respondent
Werner was the smart phone purchased prior to the parole modification, which was released to
Petitioner's friend on 29-NOV-16 (Respondents' Exhibit #17; Narrative 29-NOV-16;
Respondents' Exhibit #29; Narrative 21-JUN-16) which was released in 2016 not 2017 [Werner's
affidavit #106] which was different from the phone mailed out by Bertsch on September 28,
2017 (Respondent's Exhibit #16), in an attempt to hide the identity of the person who hand to her
the material she mailed September 28,2017.
Even if there is no direct evidence presented, the above can establish Bertsch
involvement through circumstantial evidence considering the fact of intent to deprived
Petitioner's access to his legal document be the selective nature of the deprivation, Bertsch
possess the items on September 28, 2017 to mail them out excluding the USB memory derive
which contained the legal materials and hiding the identity of the person who passed them to her
for mailing. See USPS Bd. of Governors v. Aikens, 460 U.S. 711, 714 n.3,103 S. Ct. 1478, 75 L.

36

Ed. 2d 403 (1983) (in any lawsuit, a plaintiff... may prove his case by direct or circumstantial
evidence. The trier of fact should consider all the evidence, giving it whatever weight and
credence it deserves).
The lower court decision is in contradict with this Court opinion in Tolan and Anderson
and Petitioner pry to this Court to grant his Petition with instruction to enter opinion that is in
consist with this Court decisions in Tolan and Anderson.
8.

NEW APPELAT FEES FOR CASE # 19-2170 (8th Circuit):

As discussed above, after the district court filed its opinion on December 12, 2017. See
Abdulrazzak, 2017 U.S. Dist. LEXIS 203817, 2017 WL 6375631 (D.S.D., Dec. 12, 2017),
Petitioner mailed to the court a motion to reconsider on December 18, 2017.
Petitioner however was confused about the time for filing an appeal with the Eighth
Circuit and therefore on submitted a (motion to Appeal) on December 21, 2017 (Appendix O)
asking for "... the court to provide any available guide-lines or instructions ...".
Petitioner also submitted that"... plaintiff don't know about the timing if that decision is
immediate appealable (sic) or should wait until decision made in the Motion to reconsider
(mailed on Dec. 18, 2017) id.
Petitioner was merely asking for the court recommendations or guide lines about the time
for filing an appeal. The district court however, without answering the question entered order
permitting Petitioner to appeal and direct to proceed in forma paupers. See Abdulrazzak v. Smith,
2018 U.S. Dist. LEXIS 13033, 2018 WL 10154277 (D.S.D., Jan. 26,2018) (Appendix D) and
the Circuit Court docketed the appeal as (Case #18-1213).

37

Petitioner would submit that the lower court should be aware that the appeal could not be
filed until a final determination on his motion for reconsideration entered under 2 U.S.C. §1219
and therefore the appeal should not be filed.
Even if the lower court correctly determined that the motion mailed December 21,2017
was a request to file an appeal, it is undisputed that the Circuit Court dismissed (Case #18-1213)
for lack of jurisdiction as premature. See Abdulrazzak v. Smith, 2018, U.S. App. LEXIS 21727
(8th Cir. S.D., Feb. 6, 2018) (Appendix J).
However, it is well settled that dismissal as premature is a dismissal without prejudice to
permit refilling. United States ex rel. Shakopee Management Co. v. Pan American Management
Co., 789 F.2d 632, 636 (8th Cir. 1986) (appeal dismissed as premature are dismissal without
prejudice). See also Butler v. Merchants Bank & Trust Co. (In re Butler Inc.), 2 F.3d 154, 156-57
(5th Cir. 1993) (dismissing notice of appeal as premature when there was pending motion for
rehearing in front of the district court and directing no new filing fees to be paid for filing an
amended notice upon the district court ruling).
This Court also held "claim dismissed without prejudice could be treated as have never
been presented". Stewart v. Martinez-Villareal, 523 U.S. 637, 651 n.2, 118 S. Ct. 1618, 140 L.
Ed. 2d 849 (1998), and filing an appeal after conclusion of the proceeding should not be
considered as a second or successive appeal. See also Slack v. McDaniel, 529, U.S. 473, 485-86,
120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000) (concluding that "[a] habeas petition filed in the
district court after an initial habeas petition as unadjudicated on its merits and dismissal for
failure to exhaust state remedies is not a second or successive petition)
Notwithstanding this Court opinion in Stewart and slack, this Court have not ruled about
paying new filing fees for appeals when the original was dismissed without briefing as

38

premature. Petitioner pry to this Court to grant his petition to discuss the issues of paying new
filing fees for an appeal after dismissal the original without looking at the merits and reasonably
considered as never being filed pursuant to Cooter & Gell v. Hartmarx corp., 496 U.S. 384, 396,
110 S. Ct. 2447,110 L. ed. 2d 359 (1990) (“Dismissal without prejudice” is a dismissal that does
not “operate as adjudication upon the merits”), as it may overburden an incarcerated inmates.
CONCLUSION:
Petitioner pry to this Court to grant this petition and reveres due to the fact, in part,
dismissal of some of Petitioner’s claims pursuant to 28 U.S.C. §§1915 (2)(B)(ii) and 1915A(b)(l)
was premature, and due to the lower court’s failure to resolve all the conflicts in facts and
evidence in his favor and due existence of genuine issues for jury to decide when it determined
the summary judgment on other claims, and new filing fees should not be warranted when the
original appeal dismissed as premature.
The lower court could not grant Kaufman the defense of not a state actor as he never
pled. The lower court also abused its discretion in denying Petitioner motion to enter default
judgment against Kaufman where Kaufman decided to hide himself and refused to cooperate
with the court order for discovery.
Petitioner also pry to this Court to appoint him an attorney pursuant to USCS Supreme
Ct. R. 39(7) upon granting him his writ as he is indigent and speak English as second language.
Respectfully Submitted.
Dated this 28th of July, 2020

Haider Salah Abdulrazzak, # 04373
Mike Durfee State Prison
1412 Wood Street
Springfield, SD 57062-2238
Petitioner/Pro se

39

